Audit Report GR-60-05-008

Office of Community Oriented Policing Services Methamphetamine Initiative Grants Administered by Prairie View Prevention Services, Sioux Falls, South Dakota

Audit Report GR-60-05-008


June 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Methamphetamine Initiative grants awarded by the Office of Community Oriented Policing Services (COPS Office) to Prairie View Prevention Services (Prairie View), Sioux Falls, South Dakota.  The purpose of these grants is to assist state and local law enforcement agencies in reducing the production, distribution, and use of methamphetamine.  Prairie View was awarded three congressionally earmarked grants, totaling $2,090,788, to provide awareness and education on the use and prevention of methamphetamine in South Dakota.  

We tested Prairie Views compliance with grant requirements in four areas  reporting, drawdowns, budget management and control, and expenditures.  While we found Prairie View to be compliant with grant budget management and control, we found noncompliance issues in the areas of grant reporting requirements, grant drawdowns, and grant expenditures.  As a result, we questioned costs totaling $485,124.1
Specifically, we found:

Prairie View charged unsupported salaries and fringe benefits to Grant No. 2001-CK-WX-0110 ($166,211), Grant No. 2002-CK-WX-0234 ($77,369), and Grant No. 2004-CK-WX-0367 ($22,826).

	Salaries and fringe benefits charged to the grant for grant-funded positions exceeded the amounts that were approved by the COPS Office, resulting in unallowable questioned costs to Grant 
No. 2001-CK-WX-0110 ($48,462) and Grant No. 2004-CK-WX-0367 ($769).
 
	Prairie View charged unallowable and unsupported direct costs to Grant No. 2001-CK-WX-0110 ($37,468), Grant No. 2002-CK-WX-0234 ($12,009), and Grant No. 2004-CK-WX-0367 ($7,958).
	
	The grantee received drawdowns in excess of costs supported by accounting records for Grant No. 2001-CK-WX-0110 ($101,325) and Grant No. 2002-CK-WX-0234 ($10,727). 

	Prairie View did not comply with the requirements of the Office of Management and Budget Circular A-133 to conduct a Single Audit.

	Financial Status Reports and Progress Reports were not always submitted or submitted timely for all grants. 

	Financial Status Reports were not always accurate for all grants.

	Indirect costs were incorrectly allocated in the indirect costs proposal.

Our report contains 25 recommendations to address the preceding issues, which are discussed in detail in the Findings and Recommendations section of the report.  Our audit objective, scope and methodology appear in Appendix I of the report. 

We discussed the results of our audit with Prairie View officials and have included their comments in the report as applicable.   



Footnotes

The Inspector General Act of 1978 contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and the definition of questioned costs.